INDEX TO APPENDICES
Appendix A
A-l Judgment and Order entered on September 17, 2019 by Earl Leroy
Yeakel, III.
A-2 Fifth Circuit per curiam panel opinion AFFIRMED on its
Summary Calendar on April 9, 2020.
A-3 Order on Motion for Rehearing En Banc of the Court of Appeals for
the Fifth Circuit {en banc denied by Panel).
Appendix B
B-l U.S. Const. Art. I, §1, § 9, and Bill of Rights U.S. Const. Amends.
1, 4, 5, 7, 8, 9, and 10
B-2 28 U.S.C. § 1915 and 28 U.S.C. § 1915A
B-3 Relevant excerpts from 28 U.S.C. § 631, etseq.
B-4 Fed. R. Proc. Rule 1, 3, 4, and 8
B-5 Standing Order of the District Courts
Appendix C
Texas Bill of Rights TEX. CONST. ART. I, §§ 1-29, and Separation of
Powers, TEX. CONST. ART. II, § 1.
These “forever inviolate” rights are preserved and protected by the 9th
and 10th Amendments to the United States Constitution.

APPENDIX A

APPENDIX A

Appendix A
A l Judgment and Order entered on September 17, 2019 by Earl Leroy
Yeakel, III.
A'2 Fifth Circuit per curiam panel opinion AFFIRMED on its
Summary Calendar on April 9, 2020.
A-3 Order on Motion for Rehearing En Banc of the Court of Appeals for
the Fifth Circuit {en banc denied by Panel).

Case 1:18-cv-00952-LY Document 13 Filed 09/17/19 Page 1 of 3

ch
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
CAROLYN BARNES AND CHILDREN,
PLAINTIFFS,

§
§

V.

§
§
§

cn

2019SEP n PH 3:31
CLERK L:-'=
WESTERN 0;sViLL\
3Y_____

[;Fp;;TY

CIVIL NO. A-l 8-CV-00952-LY

UNITED STATES OF AMERICA ETAL., §
DEFENDANTS.
§
ORDER ON REPORT AND RECOMMENDATION
OF THE UNITED STATES MAGISTRATE JUDGE. ORDER DENYING MOTION TO
RECUSE. AND ORDER BARRING PLAINTIFF CAROLYN BARNES FROM FILING
IN THE WESTERN DISTRICT OF TEXAS ABSENT LEAVE OF COURT
Before the court in the above styled and numbered cause is the Order on In Forma Pauperis
Status and Report and Recommendation on the Merits of the Claims signed by the United States
Magistrate Judge on July 30, 2019 (Clerk’s Document No. 9). The magistrate judge granted
plaintiffs permission to proceed in forma pauperis and proceeded to review die merits of their
claims. See 28 U.S.C. § 1915(e). Also pending in this action is Barnes’s Motion to Recuse filed
November 2,2018 (Clerk’s Document No. 3). Barnes “requests that all judges of this Court recuse
themselves, and that upon recusal, that the Supreme Court of the United States appoint a fair and
!

impartial, neutral and detached, judge or justice from outside the 5th Circuit, and assign him or her
to hear this case.” The court has reviewed the motion and finds that it is filed solely for the purpose
of delay. The motion is frivolous in all respects. Having considered the motion and the applicable
law, the motion is without merit and the court will deny the motion.
By report and recommendation, the magistratejudge recommends that the court dismiss with
prejudice Plaintiffs’ complaint. See 28 U.S.C. § 1915(e)(2)(B).1 Additionally, the magistrate judge

1 The court shall dismiss the case at any time if the court determines that the action is
frivolous or malicious, fails to state a claim on which relief may be granted, or seeks monetary relief
against a defendant who is immune from such relief. 28 U.S.C. § 1915(e)(2XB).
19-50925.915

EXAS

Case l:18-cv-00952-LY Document 13 Filed 09/17/19 Page 2 of 3

reviewed Plaintiffpro se Carolyn Barnes’s lengthy history of filing frivolous lawsuits and suggests
that the court find Barnes a vexatious litigant and bar her from filing any future complaints in the
Western District of Texas absent prior approval of a district or magistrate judge. See Potts v. Texas,
354 F. App’x 70,71 (5th Cir. 2009) (citing Murphy v. Collins, 26 F.3d 541, 544 (5th Cir. 1994)).
Barnes received the report and recommendation on August 12,2019 (Clerk’s Document No. 11).2
A party may serve and file specific written objections to the proposed findings and
recommendations of a magistrate judge within fourteen days after being served with a copy of the
report and recommendation, thereby securing a de novo review by the district court. See 28
U.S.C. § 636(b); Fed. R. Civ. P. 72(b). Objections to the report and recommendation if any were
due to be filed on August 26,2019. Barnes filed objections to the report and recommendation on
August 26,2019 (Clerk’s Document No. 12). In light of the objections, the court has undertaken a
de novo review of the entire case file. See Fed. R. Civ. P. 72. Having considered the objections, the
case file, and the applicable law, the court will overrule Barnes’ s objections and the court will accept
and adopt the report and recommendation for substantially the reasons stated therein.
!

IT IS ORDERED that Barnes’s Motion to Recuse filed November 2, 2018 (Clerk’s
Document No. 3) is DENIED.
IT IS FURTHER ORDERED that Plaintiff Carolyn Barnes’s Objections to the Report and
Recommendation of the United States Magistrate Judge filed August 26,2019 (Clerk’s Document
No. 12) are OVERRULED.

2 In light of the court’s review ofthis action pursuant to Title 28 United States Code section
1915(e), Barnes was the only party noticed with the report and recommendation. Service of process
upon all Defendants has been withheld pending the court’s review ofthe report and recommendation.
2
19-50925.916

Case l:18-cv-00952-LY Document 13 Filed 09/17/19 Page 3 of 3

IT IS FURTHER ORDERED that for substantially foe reasons stated therein, foe Report
and Recommendation offoe United States Magistrate Judge signed July 30,2019 (Clerk5 s Document

No. 9) is ACCEPTED AND ADOPTED.
IT IS FURTHER ORDERED that as foe complaint raises only frivolous claims, foe
complaint is DISMISSED WITH PREJUDICE. See 28 U.S.C. § 1915(e)(2)(B).
IT IS FURTHER ORDERED that in light of foe dismissal of foe complaint, Plaintiffs5
Emergency Motion for a Temporary Restraining Order and Temporary Injunction to Prevent
Spoliation of Evidence and Interference with Homestead Rights filed December 20,2018 (Clerk’s
Document No. 7) is DISMISSED AS MOOT.
Due to Plaintiff Carolyn Barnes’s pattern of filing frivolous lawsuits in this court, as outlined
in foe report and recommendation, the court finds and concludes that Carolyn Barnes is a vexatious
litigant. Therefore,
IT IS FURTHER ORDERED that Carolyn Barnes is BARRED FROM FILING any
additional pleadings or motions in this action, with foe exception of a notice of appeal, foe appellate
filing fee, or a request to proceed in forma pauperis on appeal, until and unless foe Fifth Circuit
remands this action to this court.
!
!

IT IS FURTHER ORDERED that Carolyn Barnes is BARRED FROM FILING any
future complaints in foe Western District of Texas absent leave of a district or magistrate judge.
SIGNED this

m

day of September, 2019.

le:

D STATES DISTRICT JUDGE

3
19-50925.917

Case l:18-cv-00952-LY Document 14 Filed 09/17/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
AUSTIN DIVISION
CAROLYN BARNES AND CHILDREN,
PLAINTIFFS,

§

V.

2019 SEP 17 PH 3:31
CLERK US OiS r«;cr>^UIU
WESTERN DivRiOT OOEQS

§
§
§

cii
cn
I L.
LS

t

DEPUTY

CIVIL NO. A-l 8-CV-00952-LY

§

UNITED STATES OF AMERICA ETAL., §
DEFENDANTS.
§
FINAL JUDGMENT
Before the court is the above styled and numbered action. On this date, the court dismissed
all claims alleged by Plaintiffs against all Defendants as frivolous and with prejudice. See 28 U.S.C.
§ 1915(e)(2)(B). Additionally, the court ordered that Carolyn Barnes is BARRED FROM FILING
any additional pleadings or motions in this action, with the exception of a notice of appeal, the
appellate filing fee, or a request to proceed in forma pauperis on appeal, until and unless the Fifth
Circuit remands this action to this court. The court also ordered that Carolyn Barnes is BARRED
FROM FILING any future complaints in the Western District of Texas absent leave of a district
or magistrate judge.
As no disputes remain between the parties for resolution, the court renders this finaljudgment
pursuant to Federal Rule of Civil Procedure 58.
IT IS ORDERED that this action is hereby CLOSED.
SIGNED this

day of September, 2019.

/
LEE\YEAKEL /
UNI[TED STATES DISTRICT JUDGE

19-50925.918

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50925
Summary Calendar

FILED
April 9, 2020
Lyle W. Cayce
Clerk

CAROLYN BARNES, and Children,
Plaintiff - Appellant
v.

UNITED STATES OF AMERICA; U.S. CENSUS BUREAU; FEDERAL
BUREAU OF INVESTIGATION; U.S. DEPARTMENT OF COMMERCE,
UNITED STATES DEPARTMENT OF JUSTICE, ET AL.,
Defendants - Appellees

Appeals from the United States District Court
for the Western District of Texas
USDC No. l:18-CV-952
Before WIENER, HAYNES, and COSTA Circuit Judges.
PER CURIAM:*
Carolyn Barnes appeals the dismissal of her in forma pauperis complaint
as frivolous, as well as the ban on her filing future suits in the Western District
of Texas without court approvaL We AFFIRM.

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

No. 19-50925
1.

Background

In November 2018, Barnes “and her children” filed a nearly 500-page
complaint in the Western District of Texas, alleging claims against the United
States, federal agencies, the state of Texas, state agencies, Texas counties and
departments, federal courts of appeals, the Texas Supreme Court, more than
seventy individuals, and others.

Barnes alleged a general “deprivation of

rights, privileges, protections, and immunities” under U.S. and Texas law by
way of a “continuing conspiracy.”

She included a laundry list of alleged

nefarious schemes carried out by “the JOINT ENTERPRISE,” “the CARTEL,”
“charlatans ” “sycophants,” “usurpers and interlopers,” “the black robe mafia,”
and other bad actors.

The allegations seem to center around Barnes’s

disbarment several years ago and prior lawsuits involving Barnes.
According to Barnes’s brief on appeal, her complaint included eleven
claims: (1) violations of the Violence Against Women Act;1 (2) violations of the
Racketeer Influenced and Corrupt Organizations Act (“RICO”);2 (3) violations
of 42 U.S.C. §§ 1983 and 1985; (4) violations of the Americans with Disabilities
Act (“ADA”);3 (5) violations of the Religious Freedom Restoration Act
(“RFRA”);4 (6) “[b]reaches of fiduciary duty, contract, oath, and Fraud”;
(7) failure to prosecute; (8) “Stolen Claims” under Texas law and the Fifth
Amendment to the U.S. Constitution; (9) “Continuing Conspiracy and Specific
Performance”; (10) “Declaratory Judgment and Prospective Injunctive Relief’;
and (11) attorney’s fees and costs. These claims were “based upon personal

1 34 U.S.C. §§ 12291-12512.

2 18 U.S.C. §§ 1961-1968.
3 42 U.S.C. §§ 12101-12213.
4 Id. §§ 2000bb-2000bb-4.

2

No. 19-50925
knowledge or good faith information and belief.” Barnes further listed dozens
of statutes on the face of her complaint and invoked other law throughout.
Barnes also moved, ostensibly, for the recusal of U.S. District Judges
Yeakel and Pitman, U.S. Magistrate Judge Austin, all Fifth Circuit Judges, all
Texas judges, and “all the judges of this Court” (presumably the district court),
and she requested “the appointment of a district judge outside the political and
social influence of this cabal of cronies.” She based this motion On similar
allegations of conspiracy and collusion.
Barnes subsequently filed a “supplemental original complaint” that
purported to add new defendants “who capitalized on the criminal conspiracy
and outlawry of Barnes” by destroying and stealing her property—but she did
not seek to amend or replace her original complaint. She concurrently filed an
emergency motion for a temporary restraining order and temporary injunction
to prevent the destruction of evidence related to an incident involving the
police that allegedly occurred at Barnes’s home in November 2018.
The magistrate judge, after allowing Barnes to proceed in forma
pauperis, issued a report recommending dismissal of her suit as frivolous
under 28 U.S.C. § 1915(e) because it “lack[ed] any arguable basis in law or
fact.” The report also detailed Barnes’s history of frivolous litigation in state
and federal courts and therefore recommended that Barnes be prohibited from
filing future complaints in the district without court approval. See Murphy v.
Collins, 26 F.3d 541, 544 (5th Cir. 1994).

The district court adopted the

magistrate judge’s report and recommendation and thus dismissed the case
with prejudice as frivolous, denied the recusal motion, dismissed the
emergency motion as moot, and barred Barnes from filing future complaints in
. the Western District of Texas absent leave of court. Barnes timely appealed,
then filed a considerably expanded amended notice of appeal.

3

No. 19-50925
II.

Discussion

Under 28 U.S.C. § 1915(e), a district court may, in its discretion, dismiss
an in forma pauperis complaint with prejudice “as frivolous if it lacks an
arguable basis in law or fact.” McCormick v. Stalder, 105 F.3d 1059,1061 (5th
Cir. 1997). “A complaint lacks an arguable basis in law”—that is, it is legally
frivolous—“if it is ‘based on an indisputably meritless legal theory,’ such as if
the complaint alleges the violation of a legal interest which clearly does not
exist.” Id. (quoting Neitzke v. Williams, 490 U.S. 319, 327 (1989)). A factually
frivolous complaint is made up of “allegations that are fanciful, fantastic, and
delusional.” Denton v. Hernandez, 504 U.S. 25, 32—33 (1992) (citations and
internal quotation marks omitted).
We review the district court’s decision to dismiss under this statute for
abuse of discretion. Id. The same is true for recusal decisions, Andrade v.
, Chojnacki, 338 F.3d 448, 454 (5th Cir. 2003), and restrictions on filing
privileges, Potts v. Texas, 354 F. App’x 70, 71 (5th Cir. 2009) (per curiam).
The district court did not abuse its discretion by dismissing Barnes’s
complaint as frivolous. Her claims are untethered from both law and fact and
are thus clearly meritless.

The rest of the complaint is a list of general

grievances unrelated to any legally cognizable right. For similar reasons, this
appeal is frivolous as well.5 See Buck v. United States, 967 F.2d 1060, 1062
(5th Cir. 1992) (per curiam). We also agree with the district court that Barnes’s
recusal motion was, like the complaint, “frivolous in all respects.” Lastly, the
filing restriction was not an abuse of discretion: The magistrate judge’s report

5 We will not consider the arguments that Barnes makes for the first time on appeal,
like her claims that 28 U.S.C. § 1915A and filing restrictions are unconstitutional. See
Martco L.P. v. Wellons, Inc., 588 F.3d 864, 877 (5th Cir. 2009).

4

No. 19-50925
recounts Barnes’s history as a vexatious litigant, which more than adequately
supports this measure.
AFFIRMED.

5

Case: 19-50925

Document: 00515460395

Page: 1

Date Filed: 06/22/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 19-50925
CAROLYN BARNES, and Children,
Plaintiff - Appellant
v.
UNITED STATES OF AMERICA; U.S. CENSUS BUREAU; FEDERAL
BUREAU OF INVESTIGATION; U.S. DEPARTMENT OF COMMERCE,
UNITED STATES DEPARTMENT OF JUSTICE, ET AL.,
Defendants - Appellees

Appeal from the United States District Court
for the Western District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion 04/09/2020, 5 Cir.,

F.3d

Before WIENER, HAYNES, and COSTA, Circuit Judges.
PER CURIAM:
Treating the Petition for Rehearing En Banc as a Petition for Panel
Rehearing, the Petition for Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the court having requested that the
court be polled on Rehearing En Banc (FED. R. APP. P. and 5™ CIR. R. 35), the

Case: 19-50925

Document: 00515460395

Page: 2

Date Filed: 06/22/2020

Petition for Rehearing En Banc is DENIED.
IT IS FURTHER ORDERED that Appellant’s incorporated motion for
appointment of counsel is DENIED.

ENTERED FOR THE COURT: 6-22-2020
___ /s/ Catharina Haynes_______
CATHARINA HAYNES
UNITED STATES CIRCUIT JUDGE

APPENDIX B

APPENDIX B

Appendix B
B-l U.S. Const. Art. I, §1, § 9, and Bill of Rights U.S. Const. Amends.
1, 4, 5, 7, 8, 9, and 10
B-2 28 U.S.C. § 1915 and 28 U.S.C. § 1915A
B-3 Relevant excerpts from 28 U.S.C. § 631, etseq.
B-4 Fed. R. Proc. Rule 1, 3, 4, and 8
B-5 Standing Order of the District Courts

US. Const. Art. I, § 1
All legislative Powers herein granted shall be vested in a Congress of the United States,
which shall consist of a Senate and House of Representatives.
US. Const. Art. I, § 9
No bill of attainder or ex post facto Law shall be passed.
Amendment I
Congress shall make no law respecting an establishment of religion, or
prohibiting the free exercise thereof or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
government for a redress of grievances.
Amendment IV
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated, and
no warrants shall issue, but upon probable cause, supported by oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
Amendment V
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a grand jury, except in cases arising
in the land or naval forces, or in the militia, when in actual service in time of
war or public danger! nor shall any person be subject for the same offense to
be twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law! nor shall private property be taken for
public use, without just compensation.
Amendment VII
In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a
jury, shall be otherwise reexamined in any court of the United States, than
according to the rules of the common law.
Amendment VIII
Excessive bail shall not be required, nor excessive fines imposed, nor cruel
and unusual punishments inflicted.

Amendment IX
The enumeration in the Constitution, of certain rights, shall not be construed
to deny or disparage others retained by the people.
Amendment X
The powers not delegated to the United States by the Constitution, nor
prohibited by it to the states, are reserved to the states respectively, or to the
people.

28 U.S. Code $ 1915.Proceedings in forma pauperis
(a)

(1)
Subject to subsection (b), any court of the United States may authorize the
commencement, prosecution or defense of any suit, action or proceeding, civil
or criminal, or appeal therein, without prepayment of fees or security
therefor, by a person who submits an affidavit that includes a statement of
all assets such prisoner possesses that the person is unable to pay such fees
or give security therefor. Such affidavit shall state the nature of the action,
defense or appeal and affiant’s belief that the person is entitled to redress.
(2)

A prisoner seeking to bring a civil action or appeal a judgment in a civil
action or proceeding without prepayment of fees or security therefor, in
addition to filing the affidavit filed under paragraph (l), shall submit a
certified copy of the trust fund account statement (or institutional equivalent)
for the prisoner for the 6-month period immediately preceding the filing of
the complaint or notice of appeal, obtained from the appropriate official of
each prison at which the prisoner is or was confined.
(3)

An appeal may not be taken in forma pauperis if the trial court certifies in
writing that it is not taken in good faith.
(b)
(l)Notwithstanding subsection (a), if a prisoner brings a civil action or files
an appeal in forma pauperis, the prisoner shall be required to pay the full
amount of a filing fee. The court shall assess and, when funds exist, collect,
as a partial payment of any court fees required by law, an initial partial filing
fee of 20 percent of the greater of—
(A)
the average monthly deposits to the prisoner’s account; or
(B)
the average monthly balance in the prisoner’s account for the 6-month period
immediately preceding the filing of the complaint or notice of appeal.
(2)

After payment of the initial partial fifing fee, the prisoner shall be required to
make monthly payments of 20 percent of the preceding month’s income
credited to the prisoner’s account. The agency having custody of
the prisoner shall forward payments from the prisoner’s account to the clerk
of the court each time the amount in the account exceeds $10 until the fifing
fees are paid.
(3)

In no event shall the filing fee collected exceed the amount of fees permitted
by statute for the commencement of a civil action or an appeal of a civil action
or criminal judgment.
(4)
In no event shall a prisoner be prohibited from bringing a civil action or
appealing a civil or criminal judgment for the reason that the prisoner has no
assets and no means by which to pay the initial partial fifing fee.
(c)

Upon the fifing of an affidavit in accordance with subsections (a) and (b) and
the prepayment of any partial fifing fee as may be required under subsection
(b), the court may direct payment by the United States of the expenses of (l)
printing the record on appeal in any civil or criminal case, if such printing is
required by the appellate court; (2) preparing a transcript of proceedings
before a United States magistrate judge in any civil or criminal case, if such
transcript is required by the district court, in the case of proceedings
conducted under section 636(b) of this title or under section 3401(b) of title
18, United States Code; and (3) printing the record on appeal if such printing
is required by the appellate court, in the case of proceedings conducted
pursuant to section 636(c) of this title. Such expenses shall be paid when
authorized by the Director of the Administrative Office of the United States
Courts.
(d)
The officers of the court shall issue and serve all process, and perform all
duties in such cases. Witnesses shall attend as in other cases, and the same
remedies shall be available as are provided for by law in other cases.
(e)

(1)
The court may request an attorney to represent any person unable to afford
counsel.
^Notwithstanding any fifing fee, or any portion thereof, that may have been
paid, the court shall dismiss the case at any time if the court determines
that—
(A)
the allegation of poverty is untrue; or
(B)the action or appeal—

(i)
is frivolous or malicious;

(ii)
fails to state a claim on which relief may be granted; or

(iii)
seeks monetary relief against a defendant who is immune from such relief.

(£>
(l)
Judgment may be rendered for costs at the conclusion of the suit or action as
in other proceedings, but the United States shall not be liable for any of the
costs thus incurred. If the United States has paid the cost of a stenographic
transcript or printed record for the prevailing party, the same shall be taxed
in favor of the United States.
(2)
(A)
If the judgment against a prisoner includes the payment of costs under this
subsection, the prisoner shall be required to pay the full amount of the costs
ordered.
(B)
The prisoner shall be required to make payments for costs under this
subsection in the same manner as is provided for filing fees under subsection
(a)(2).
(C)
In no event shall the costs collected exceed the amount of the costs ordered by
the court.
(g)
In no event shall a prisoner bring a civil action or appeal a judgment in a civil
action or proceeding under this section if the prisoner has, on 3 or more prior
occasions, while incarcerated or detained in any facility, brought an action or
appeal in a court of the United States that was dismissed on the grounds that
it is frivolous, malicious, or fails to state a claim upon which relief may be
granted, unless the prisoner is under imminent danger of serious physical
injury.
(h)
As used in this section, the term “prisoner” means any person incarcerated or
detained in any facility who is accused of, convicted of, sentenced for, or
adjudicated delinquent for, violations of criminal law or the terms and
conditions of parole, probation, pretrial release, or diversionary program.
(June 25, 1948, ch. 646, 62 Stat. 954; May 24, 1949, ch. 139, § 98, 63 Stat.
104; Oct. 31, 1951, ch. 655, § 51(b), (c), 65 Stat. 727; Pub. L. 86-320, Sept. 21,
1959, 73 Stat. 590; Pub. L. 96-82, § 6, Oct. 10, 1979, 93 Stat. 645; Pub. L.
101-650, title III, § 321, Dec. 1, 1990, 104 Stat. 5117; Pub. L. 104-134, title I,
§ 1011(a)] [title VIII, § 804(a), (c)-(e)], Apr. 26, 1996, 110 Stat. 1321, 1321-73
to 1321-75; renumbered title I, Pub. L. 104-140, § 1(a), May 2, 1996, 110
Stat. 1327.)

28 U.S. Code § 1915A.Screening
(a)SCREENING.—
The court shall review, before docketing, if feasible or, in any event, as soon
as practicable after docketing, a complaint in a civil action in which
a prisoner seeks redress from a governmental entity or officer or employee of
a governmental entity.
(b)GROUNDS FOR DISMISSAL.—On review, the court shall identify cognizable
claims or dismiss the complaint, or any portion of the complaint, if the
complaint—
(1)
is frivolous, malicious, or fails to state a claim upon which relief may be
granted; or
(2)

seeks monetary relief from a defendant who is immune from such relief.

(^Definition.—
As used in this section, the term “prisoner” means any person incarcerated or
detained in any facility who is accused of, convicted of, sentenced for, or
adjudicated delinquent for, violations of criminal law or the terms and
conditions of parole, probation, pretrial release, or diversionary program.
(Added Pub. L. 104-134, title I, § 101 [(a)] [title VIII, § 805(a)], Apr. 26,
1996, 110 Stat. 1321, 1321—75; renumbered title I, Pub. L. 104—140,
§ 1(a), May 2, 1996, 110 Stat. 1327.)

FEDERAL MAGISTRATES ACT
28 U.S.C. § 636(b)(1)(A) prohibits magistrates from exercising authority in
eight pretrial dispositive areas. Three of these prohibited areas are motions*
• for injunctive relief (ML granted sua sponte when he enjoined the clerk
from issuing or serving summons on the defendants; and kept this
injunction in place).
• for judgment on the pleadings (ML orchestrated a dismissal with prejudice
on the pleadings).
• to involuntarily dismiss an action (ML accomplished this with
inflammatory adhominem attacks and innuendos of “frivolousness”).
See full language below, where magistrates must conduct “hearings,
including evidentiary hearings” and “findings of fact” must be based on those
“hearings.” See also, that Article III judge must make a “de novo
determination.” However, without a “hearing,” there is no record from which
to conduct a “de novo determination.”
28 U.S.C. § (b)
(l)Notwithstanding any provision of law to the contrary—
(A)
a judge may designate a magistrate judge to hear and determine any pretrial
matter pending before the court, except a motion for injunctive relief, for
judgment on the pleadings, for summary judgment, to dismiss or quash an
indictment or information made by the defendant, to suppress evidence in a
criminal case, to dismiss or to permit maintenance of a class action, to
dismiss for failure to state a claim upon which relief can be granted, and to
involuntarily dismiss an action. A judge of the court may reconsider any
pretrial matter under this subparagraph (A) where it has been shown that
the magistrate judge’s order is clearly erroneous or contrary to law.
(B)
a judge may also designate a magistrate judge to conduct hearings, including
evidentiary hearings, and to submit to a judge of the court proposed findings
of fact and recommendations for the disposition, by a judge of the court, of
any motion excepted in subparagraph (A), of applications for
posttrial [l] relief made by individuals convicted of criminal offenses and of
prisoner petitions challenging conditions of confinement.
(C)
the magistrate judge shall file his proposed findings and recommendations
under subparagraph (B) with the court and a copy shall forthwith be mailed
to all parties.

Within fourteen days after being served with a copy, any party may serve and
file written objections to such proposed findings and recommendations as
provided by rules of court. A judge of the court shall make a de novo
determination of those portions of the report or specified proposed findings or
recommendations to which objection is made. A judge of the court may accept,
reject, or modify, in whole or in part, the findings or recommendations made
by the magistrate judge. The judge may also receive further evidence or
recommit the matter to the magistrate judge with instructions.
(2)

A judge may designate a magistrate judge to serve as a special master
pursuant to the applicable provisions of this title and the Federal Rules of
Civil Procedure for the United States district courts. A judge may designate
a magistrate judge to serve as a special master in any civil case, upon consent
of the parties, without regard to the provisions of rule 53(b) of the Federal
Rules of Civil Procedure for the United States district courts.
(3)

A magistrate judge may be assigned such additional duties as are not
inconsistent with the Constitution and laws of the United States.
(4)
Each district court shall establish rules pursuant to which the magistrate
judges shall discharge their duties.

FRCP Rule 1. Rule 5. Scope and Purpose
These rules govern the procedure in all civil actions and proceedings in the
United States district courts, except as stated in Rule 81. They should be
construed, administered, and employed by the court and the parties to secure
the just, speedy, and inexpensive determination of every action and
proceeding.

FRCP Rule 3. Commencing an Action
A civil action is commenced by filing a complaint with the court.

FRCP Rule 4. Summons
(a) Contents; Amendments.
(1) Contents. A summons must(A) name the court and the parties;
(B) be directed to the defendant;
(C) state the name and address of the plaintiff’s attorney or—if
unrepresented—of the plaintiff;
(D) state the time within which the defendant must appear and defend;
(E) notify the defendant that a failure to appear and defend will result
in a default judgment against the defendant for the relief demanded in
the complaint;
(F) be signed by the clerk; and
(G) bear the court's seal.
(2) Amendments. The court may permit a summons to be amended.
(b) ISSUANCE. On or after filing the complaint, the plaintiff may present a
summons to the clerk for signature and seal. If the summons is properly
completed, the clerk must sign, seal, and issue it to the plaintiff for service on
the defendant. A summons—or a copy of a summons that is addressed to
multiple defendants—must be issued for each defendant to be served.
(c) Service.
(l) In General. A summons must be served with a copy of the complaint.
The plaintiff is responsible for having the summons and complaint served
within the time allowed by Rule 4(m) and must furnish the necessary
copies to the person who makes service.

(2) By Whom. Any person who is at least 18 years old and not a party
may serve a summons and complaint.
(3) By a Marshal or Someone Specially Appointed. At the plaintiff's
request, the court may order that service be made by a United States
marshal or deputy marshal or by a person specially appointed by the court.
The court must so order if the plaintiff is authorized to proceed in forma
pauperis under 28 U.S.C. §1915 or as a seaman under 28 U.S.C. §1916.
(m) TIME Limit for Service. If a defendant is not served within 90 days after
the complaint is filed, the court—on motion or on its own after notice to the
plaintiff—must dismiss the action without prejudice against that defendant
or order that service be made within a specified time. But if the plaintiff
shows good cause for the failure, the court must extend the time for service
for an appropriate period. This subdivision (m) does not apply to service in a
foreign country under Rule 4(0, 4(h)(2), or 4(j)(l), or to service of a notice
under Rule 71.1(d)(3)(A).

FRCP Rule 8. General Rules of Pleading
(a) CLAIM FOR Relief. A pleading that states a claim for relief must contain(1) a short and plain statement of the grounds for the court's jurisdiction,
unless the court already has jurisdiction and the claim needs no new
jurisdictional support;
(2) a short and plain statement of the claim showing that the pleader is
entitled to relief; and
(3) a demand for the relief sought, which may include refief in the
alternative or different types of relief.

-‘ILED
IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF TEXAS
2333 D£
AUSTIN DIVISION

22 AH11:36

§

§
§

STANDING ORDER
Before the Court arc informa pauperis cases which have been assigned to the docket ofthis
Court. Pursuant to Section 1915(d) of Title 28 ofdie United States Code, “Tin officers of this court
shall issue and serve all process, and perform all duties in such cases.”
IT IS THEREFORE ORDERED that in all cases, except petitions ofwrit ofhabeas corpus
or motions filed pursuant to Section2255 ofTitle 28 ofdie United States Code, in which die plaintiff
has been granted leave to proceed in formapauperis, the Clerk’s Office, upon the entry ofthe order
granting leave to proceed informa pauperis, immediately shall issue a summons, and the United
States Marshal’s Service shall attempt service ofthe summons without prepayment ofa service fee,
unless otherwise ordered by the Corn!
This order applied to cases on the docket of the undersigned.
SIGNED this 2ftday of December, 2003.

SAM SPARKS
JJ
UNITED STATES DISTRICT JUDGE

APPENDIX C

APPENDIX C

Appendix C

Texas Bill of Rights, TEX. CONST. ART. I, §§ 129.
Separation of Powers, TEX. CONST. ART. II, § 1.

APPENDIX C
TEXAS LAW
TEXAS CONSTITUTIONAL PROVISIONS INVOLVED
Texas Constitution, Art. 1
ARTICLE 1. BILL OF RIGHTS
That the general, great and essential principles of liberty and free
government may be recognized and established, we declare:
Sec. 1. FREEDOM AND SOVEREIGNTY OF STATE. Texas is a
free and independent State, subject only to the Constitution of the United
States, and the maintenance of our free institutions and the perpetuity of the
Union depend upon the preservation of the right of local self-government,
unimpaired to all the States.
Sec. 2. INHERENT POLITICAL POWER; REPUBLICAN FORM
OF GOVERNMENT. All political power is inherent in the people, and all
free governments are founded on their authority, and instituted for their
benefit. The faith of the people of Texas stands pledged to the preservation
of a republican form of government, and, subject to this limitation only, they
have at all times the inalienable right to alter, reform or abolish their
government in such manner as they may think expedient.
Sec. 3. EQUAL RIGHTS. All free men, when they form a social
compact, have equal rights, and no man, or set of men, is entitled to
exclusive separate public emoluments, or privileges, but in consideration of
public services.
Sec. 3 a. EQUALITY UNDER THE LAW. Equality under the law
shall not be denied or abridged because of sex, race, color, creed, or national
origin. This amendment is self-operative.
Sec. 6. FREEDOM OF WORSHIP. All men have a natural and
indefeasible right to worship Almighty God according to the dictates of their
own consciences. No man shall be compelled to attend, erect or support any
place of worship, or to maintain any ministry against his consent. No human
authority ought, in any case whatever, to control or interfere with the rights
of conscience in matters of religion, and no preference shall ever be given by
law to any religious society or mode of worship. But it shall be the duty of
the Legislature to pass such laws as may be necessary to protect equally
every religious denomination in the peaceable enjoyment of its own mode of
public worship.

Sec. 8. FREEDOM OF SPEECH AND PRESS; LIBEL. Every
person shall be at liberty to speak, write or publish his opinions on any
subject, being responsible for the abuse of that privilege; and no law shall
ever be passed curtailing the liberty of speech or of the press. In
prosecutions for the publication of papers, investigating the conduct of
officers, or men in public capacity, or when the matter published is proper
for public information, the truth thereof may be given in evidence. And in all
indictments for libels, the jury shall have the right to determine the law and
the facts, under the direction of the court, as in other cases.
Sec. 9. SEARCHES AND SEIZURES. The people shall be secure in
their persons, houses, papers and possessions, from all unreasonable seizures
or searches, and no warrant to search any place, or to seize any person or
thing, shall issue without describing them as near as may be, nor without
probable cause, supported by oath or affirmation.
Sec. 10. RIGHTS OF ACCUSED IN CRIMINAL PROSECUTIONS.
In all criminal prosecutions the accused shall have a speedy public trial by
an impartial jury. He shall have the right to demand the nature and cause of
the accusation against him, and to have a copy thereof. He shall not be
compelled to give evidence against himself, and shall have the right of being
heard by himselfor counsel, or both, shall be confronted by the witnesses
against him and shall have compulsory process for obtaining witnesses in his
favor, except that when the witness resides out of the State and the offense
charged is a violation of any of the anti-trust laws of this State, the defendant
and the State shall have the right to produce and have the evidence admitted
by deposition, under such rules and laws as the Legislature may hereafter
provide; and no person shall be held to answer for a criminal offense, unless
on an indictment of a grand jury, except in cases in which the punishment is
by fine or imprisonment, otherwise than in the penitentiary, in cases of
impeachment, and in cases arising in the army or navy, or in the militia,
when in actual service in time of war or public danger, (emphasis added).
Sec. 11. BAIL. All prisoners shall be bailable by sufficient sureties,
unless for capital offenses, when the proof is evident; but this provision shall
not be so construed as to prevent bail after indictment found upon
examination of the evidence, in such manner as may be prescribed by law.
Sec. 12. HABEAS CORPUS. The writ of habeas corpus is a writ of
right, and shall never be suspended. The Legislature shall enact laws to
render the remedy speedy and effectual.

Sec. 13. EXCESSIVE BAIL OR FINES; CRUEL AND UNUSUAL
PUNISHMENT; REMEDY BY DUE COURSE OF LAW. Excessive bail
shall not be required, nor excessive fines imposed, nor cruel or unusual
punishment inflicted. All courts shall be open, and every person for an injury
done him, in his lands, goods, person or reputation, shall have remedy by
due course of law.
Sec. 14. DOUBLE JEOPARDY. No person, for the same offense,
shall be twice put in jeopardy of life or liberty; nor shall a person be again
put upon trial for the same offense after a verdict of not guilty in a court of
competent jurisdiction.
Sec. 15. RIGHT OF TRIAL BY JURY. The right of trial by jury
shall remain inviolate. The Legislature shall pass such laws as may be
needed to regulate the same, and to maintain its purity and efficiency.
Provided, that the Legislature may provide for the temporary commitment,
for observation and/or treatment, of mentally ill persons not charged with a
criminal offense, for a period of time not to exceed ninety (90) days, by
order of the County Court without the necessity of a trial by jury.
Sec. 15-a. COMMITMENT OF PERSONS OF UNSOUND MIND.
No person shall be committed as a person of unsound mind except on
competent medical or psychiatric testimony . The Legislature may enact all
laws necessaiy to provide for the trial, adjudication of insanity and
commitment of persons of unsound mind and to provide for a method of
appeal from judgments rendered in such cases. Such laws may provide for a
waiver of trial by jury, in cases where the person under inquiry has not been
charged with the commission of a criminal offense, by the concurrence of
the person under inquiry, or his next of kin, and an attorney ad litem
appointed by a judge of either the County or Probate Court of the county
where the trial is being held, and shall provide for a method of service of
notice of such trial upon the person under inquiry and of his right to demand
atrial by jury.
Sec. 16. BILLS OF ATTAINDER; EX POST FACTO OR
RETROACTIVE LAWS; IMPAIRING OBLIGATION OF CONTRACTS.
No bill of attainder, ex post facto law, retroactive law, or any law impairing
the obligation of contracts, shall be made.
Sec. 19. DEPRIVATION OF LIFE, LIBERTY, ETC.; DUE
COURSE OF LAW. No citizen of this State shall be deprived of life, liberty,
property, privileges or immunities, or in any manner disfranchised, except
by the due course of the law of the land.

Additional material
from this filing is
available in the
Clerk's Office.

